\
V

n

■20=8041 ORiGMA^.
FILED
IN THE
SUPREME COURT OF THE UNITED STATES

DOUGLAS E. KAMPFER

— PETITIONER

(Your Name)

vs.
RICHARD ARGOTSINGER,et al

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

SECOND CIRCUIT COURT OF APPEALS
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

DOUGLAS E. KAMPFER

(Your Name)
P.0. BOX 747

(Address)
MAYFIELD, NEW YORK 12117
(City, State, Zip Code)
(518)-661-6055
(Phone Number)

A
V..

QUESTIONS PRESENTED

1.)

Is a OATH OF OFFICE a valid Contract under the Laws
and Rules of this United States and the Constitution???

2.)

Does the taking of a OATH OF OFFICE, provide the taker
a valid property interest under the Due Process Substanive
Clause of the Constitution of the United States ???????

3.) Did the Lower Courts ABUSE OF DISCRETION by not considering
Pro Se Plaintiff's [FACTS] that, he was allowed to begin

'

work and continue to work with out signing any other documents
other then the OATH OF OFFICE ?????????

4.)

Did the Appellate Court error in concluding, that Pro se
Plaintiff Kampfer had no property interest, fundamental,
or otherwise in the DCO position ?????????

pige |

s
v

LIST OF PARTIES

Plaintiff/Petitioner,

Douglas E. Kampfer

Defendant/Respondent,

Richard Argotsinger

Defendant/Respondent,

Jack Putman

Defendant/Respondent,

St even:: Van "Allen

Defendant /Respondent,

Thomas Ruliffson

Defendant/Respondent,

Vincent Coletti

RELATED CASES

NONE

*

i

page II

S

TABLE OF CONTENTS
pages
1

OPINIONS
JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4-5

REASONS FOR GRANTING PETITION

6

CONCLUSION

7

APPENDIX

A

■

SUMMARY ORDER of the Second Curcuit
Court of Appeals, Dated April 7 2021

APPENDIX B

MEMORANDUM-DECISION AND ORDER of the
U.S. District Court for the;Northern
District of New York, dated February 25, 2020

APPENDIX C

PLAINTIFF'S AMENDED COMPLAINT, dated
July 11.5 2018.

I

4-

iii

\
<4

OPINIONS
page
BOARD OF REGENTS v. ROTH, 408 U.S. 564, 92 S.Ct.2701,
33 L.Ed 2d. 548 (1972)-----CELOTEX Corp v. CATRETT 5 477 U.S. 317, 322 (1986 )
U.S. v. HINKSON

585 F.3d 1247,1263 (9th Cir. 2009 )

page 1

4
4
4

JURISDICTION

This Court has Jurisdiction pursuant to Rule 10 (a) of the
Rules of the Supreme Court, as the Decision of the Second Circuit
Court of Appeals entered on the 7th day of April 2021 AFFIRMING the
Decision of the District Court of the Northern District of New
York entered on the 25th day of February 2020, has departed from
the accepted and usual course of Judicial Proceedings, as each
member of this court or Public Office MUST take a OATH OF OFFICE
in order to obtain that position , which can only be maintained
by that person who has taken the OATH OF OFFICE.

This Court has Jurisdiction in the matter, as it is from
a final Decision of the Second Circuit Court of Appeals and this
matter is being presented to this Court

Pursuant to Rule 13 (1)

of this Courts Rule of Time to Petition within 90 days after
entry of Judgement of April 7th 2021.

JL

CONSTITUTION PROVISIONS

[ AMENDMENT 14.] (1868)

Section 1.

All persons born or nationalized in the United
States, and are subject to the jurisdiction thereof,
are citizens of the UNited States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immunities
of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

[ ARTICLE Vl]of the U.S. Constition
Section 3.

The Senators and Representatives before mentioned,
and the Members of the several State Legislatures, and
.t /r

call executive and judicial Officerg, both of the United
States and of the several States, shall be bound by Oath
or Affirmation, to support this Constitution; but no
religious Test shall ever be required as a Qualification
to any Office or public Trust under the United States.

3

CONCISE STATEMENT OF CASE;:

In each Pleading, including the Amended Complaint, Plaintiff
states in clear and procise language, that on July 11, 2017, the
Plaintiff was Appointed (1) as DCO of the Town of Mayfield and (2)
at about 7:30 p.m. Plaintiff signed a Oath of Office.
Plaintiff was allowed to begin his Appointed position after
signing the Oath of Office, no other documents were signed or :
provided ( SEE, APPENDIX C, page 5, Paragraph 3 )
Neither the District Court nor the Appellate Court, took into
consideration the [ FACTS] provided in the Amended Complaint
that the Plaintiff was required to sign a OATH OF OFFICE and
then allowed to work will no other documents signed.
Judge Kahn of the District Court Admitts in his ruling (SEE,
APPENDIX B , page 4 ) that the Plaintiff signed a OATH OF OFFICE
and; and Plaintiff insists that the dates were not written on the
Oath Form at the time he signed it.
"property Interest, of course are not created by the "- ? ;
Constitution. Rather they are created and their dimensons
are defined by existing rules or understandings that stem
from a independent source such as State Law-Rules or
understandings that secure certain benefits that support
claims of entitlement to those benefits., "
BOARD OF REGENTS v. ROTH, 408 U.S. 564, 92 S.Ct. 2701,33 L.Ed
2d.548(1972)
Here in this Case, the plaintiff was allowed to sign the OATH
OF OFFICE, and allowed to begin work with no other documents signed.
With no conditions accompanying the signing of the OATH OF
OFFICE and,with no dates on the OATH OF OFFICE, it is understood

4

that the position would be permanent.
Because there is a DISPUTE OF FACT inregards to the dates
placed on the OATH OF OFFICE [AFTER]

the Oath was signed,and;

that those dates placed on the Oath of Office, were placed without
the knowledge of the Plaintiff, that made it a ISSUE OF MATERIAL
FACT

that only can be brought before a Trier of fact, therefore

they are FACT DISPUTED.

Summary Judgement is not proper if the

nonmovant shows that there genuine dispute of Material fact,
CELOTEX Corp. v. CATRETT, 477 U.S. 317,322 (1986), here the lower
Courts admit that this is in the Deposition of the Plaintiff, that
was taken by the Defendants attorney,(SEE APPENDIX B, DISTRICT
COURT SUMMARY MEMORANDUM AND DECISION, Page 4, 2nd par,"But
Plaintiff insist
ABUSE OF DISCRETION occurs when, " Generally, a District Court
abuses its discretion when it renders a decision that is arbitrary
and unreasonable, U.S. v. HINKSON,585 ,F.3d;1247,1264(9thCir.2009)
here both the District Court and the Appellate Court never
addressed the Value , Protections, Requirements or whether a OATH
OF OFFICE is a Contract, or whether the taking of a OATH OF OFFICE
provides a SUBTANTIVE DUE PROCESS FRIGHT.:

REASONS FOR GRANTING THE PETITION

Because the OATH OF OFFICE, is one of the most important
first steps any Government Official must take before entering
the Elected or Appointed Position, and: because a Government
Official [ CAN ] be held liable for violating the OATH OF OFFICE
both Civilly and Criminally, this Case is of National importance.
Article VI, of the U.S. Constitution states that other Officials
including members of Congress, " shall be bound by Oath or:
affirmation to support this constitution." .It is a legally binding
declaration, and thus is a contract.
The decision of the lower Courts not to include the stated ::
facts in the Plaintiffs Amended Complaint( see APPENDIX C,
AMENDED COMPLAINT OF PRO SE PLAINTIFF, page 5 , paragraph 3) that
the Plaintiff made a legally binding OATH OF OFFICE, deprived the
Plaintiff of Due Process , therefore the Rulings of the District
Court and the Appellate Ruling De Novo was erroneous.
Our Country today is being infected by alledged Police
misconduct, misconduct of the Elected officials, but no where are
they being held to their OATH OF OFFICE.
This Court has never articulated whether the OATH OF OFFICE
is a legally binding contract, ARTICLE VI states V shall be bound
by Oath or Affirmation" ,is it

meaning

that it is a CONTRACT???

If so , then it is of National importance.

page 6

CONCLUSION

This Court must grant Certiorari, as the Questions
are of National importance.

ed
DATED: April 30, 2021
o

TO: Corey A. Ruggiero, Esq
Johnson & Law, LLC
648 PlanK Road
Suite 204
Clifton Park, New York 12065
( Attorny for the Defendants )

page 7

II

E. Kampfer
Box 747
Mayf/ield, New York 12117
(51/6)-661-6055

